Eleventh Circuit’s Opinion
824 F. App’x 835 (11th Cir. 2020)

United States v. Cunningham, 824 Fed.Appx. 835 (2020)

824 Fed.Appx. 835
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Neally CUNNINGHAM, a.k.a. Neally Cunningham,
Jr., a.k.a. Nealey Cunningham, III, a.k.a.
Nealy Cunningham, III, Defendant-Appellant.
No. 19-13938
|
Non-Argument Calendar
|
(August 24, 2020)
Synopsis
Background: After the United States Court of Appeals for the
Eleventh Circuit, 227 Fed.Appx. 818, affirmed his conviction
for possession with intent to distribute crack cocaine on his
direct appeal, defendant moved for a reduction of his sentence
under the First Step Act and the United States District Court
for the Middle District of Florida, No. 6:06-cr-00032, John
Antoon, Senior District Judge, denied the motion. Defendant
appealed.

[Holding:] The Court of Appeals held that defendant was not
eligible for a reduction of his sentence under the First Step
Act.

West Headnotes (1)
[1]

Sentencing and Punishment
law

Change in

Defendant was not eligible for a reduction of
his sentence for conviction for possessing crack
cocaine with the intent to distribute it under
the First Step Act, where conviction was not a
covered offense as defined by First Step Act and
the statutory minimum and maximum sentences
for the conviction were the same before and
after the passage of the Fair Sentencing Act.
18 U.S.C.A. § 1; Comprehensive Drug Abuse
Prevention and Control Act of 1970 § 401,
U.S.C.A. §§ 841(b)(1)(A)(iii),
(iii),

21

841(b)(1)(B)

841(b)(1)(C).

Attorneys and Law Firms
*836 Sean Siekkinen, Assistant U.S. Attorney, U.S.
Attorney Service - Middle District of Florida, U.S. Attorney's
Office, Tampa, FL, for Plaintiff-Appellee
Adam Paul Labonte, Rosemary Cakmis, Federal Public
Defender's Office, Orlando, FL, for Defendant-Appellant
Appeal from the United States District Court for the Middle
District of Florida, D.C. Docket No. 6:06-cr-00032-JA-DCI-1
Before NEWSOM, LUCK, and LAGOA, Circuit Judges.
Opinion

Affirmed.

PER CURIAM:

See also: 2006 WL 1280997.

Neally Cunningham appeals the district court's denial of his
motion for a reduced sentence under section 404 of the First
Step Act of 2018, Pub. L. No. 115-391, 132 Stat. 5194, 5222,
§ 404. He contends that the district court erred by concluding
he was ineligible for First Step Act relief. We affirm.

Procedural Posture(s): Sentencing or Penalty Phase Motion
or Objection.

In 2006, following a jury trial, Cunningham was convicted
of two counts of possessing crack cocaine with the intent to
distribute it, in violation of
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

21 U.S.C. sections 841(a)(1)
1

1a

United States v. Cunningham, 824 Fed.Appx. 835 (2020)

and (b)(1)(C). The jury found that Cunningham possessed
less than five grams of crack cocaine, and the district
court sentenced him as a career offender to 262 months'
imprisonment.
In 2019, Cunningham moved for a reduction of his sentence
under section 404 of the First Step Act. Cunningham argued
that his convictions under
section 841(b)(1)(C) were
“covered offense[s]” under section 404 “because [section]
2 of the Fair Sentencing Act changed the weight of [crack
cocaine] that was penalized by a statutory range of 0 to 20
years, from less than 5 grams to less than 28 grams.” The
district court denied Cunningham's motion, concluding that
he was not eligible for relief under the First Step Act because
his convictions were not “covered offense[s]” as defined by
the Act. This is Cunningham's appeal.
“A district court lacks the inherent authority to modify a term
of imprisonment. But it may do so ... to the extent that a
statute expressly permits. And the First Step Act expressly
permits district courts to reduce a previously imposed term
of imprisonment.”

that did not fall within

sections 841(b)(1)(A) or (B). See

Fair Sentencing Act § 2(a);

21 U.S.C. § 841(b)(1)(C).

In 2018, Congress enacted the First Step Act, which made
retroactive the statutory penalties for covered offenses under
the Fair Sentencing Act. See First Step Act § 404. Under
section 404(b) of the First Step Act, “[a] court that imposed
a sentence for a covered offense may ... impose a reduced
sentence as if sections 2 and 3 of the Fair Sentencing Act ...
were in effect at the time the covered offense was committed.”
Id. § 404(b). The statute defines “covered offense” as “a
violation of a Federal criminal statute, the statutory penalties
for which were modified by section 2 or 3 of the Fair
Sentencing Act ..., that was committed before [the enactment
of the Fair Sentencing Act].” Id. § 404(a).
In
Jones, we recently held that a crack-cocaine conviction
is a “covered offense” if it “triggered the higher penalties in
section 841(b)(1)(A)(iii) or (B)(iii).”
We explained,

962 F.3d at 1301.

United States v. Jones, 962 F.3d 1290,

1297 (11th Cir. 2020) (citations *837 omitted). 1
In 2010, Congress enacted the Fair Sentencing Act, which
reduced the sentencing disparity between crack-cocaine and
powder-cocaine offenses. Fair Sentencing Act of 2010,
Pub. L. No. 111-220, § 2, 124 Stat. 2372, 2372; see also
Dorsey v. United States, 567 U.S. 260, 268–69, 132
S.Ct. 2321, 183 L.Ed.2d 250 (2012). Section two of the
Fair Sentencing Act modified
sections 841(b)(1)(A)(iii)
and (B)(iii) by “increas[ing] the drug amounts [necessary to
trigger] mandatory minimums for crack trafficking offenses
from 5 grams to 28 grams in respect to the 5-year minimum
and from 50 grams to 280 grams in respect to the 10year minimum (while leaving powder at 500 grams and
5,000 grams respectively).”
Dorsey, 567 U.S. at 269, 132
S.Ct. 2321. These amendments were not made retroactive
to defendants who were sentenced prior to enactment of the
Fair Sentencing Act. United States v. Berry, 701 F.3d 374,
377 (11th Cir. 2012). And the Fair Sentencing Act did not
modify the statutory penalties for
section 841(b)(1)(C),
which both before and after the Act provided for a term of
imprisonment of not more than twenty years (thirty years with
a prior felony drug offense) for cases involving crack cocaine

A [defendant]'s offense is a covered
offense if section two or three of
the Fair Sentencing Act modified its
statutory penalties. Section two of the
Fair Sentencing Act ... modified the
statutory penalties for crack-cocaine
offenses that have as an element the
quantity of crack cocaine provided
in subsections 841(b)(1)(A)(iii) and
(B)(iii). It did so by increasing the
quantity of crack cocaine necessary to
trigger those penalty provisions. See
Fair Sentencing Act § 2(a).

Id. at 1298.
Here, Cunningham was convicted under section 841(b)(1)
(C), which is not a covered offense as defined in the First
Step Act. Section two of the Fair Sentencing Act modified
the statutory penalties for

sections 841(b)(1)(A)(iii) and

(b)(1)(B)(iii), but not for section (b)(1)(C). While the
increase in drug quantity in

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

section 841(b)(1)(B)(iii) did,

2

2a

United States v. Cunningham, 824 Fed.Appx. 835 (2020)

in turn, increase the drug quantity for
section 841(b)(1)
(C) from five grams to twenty-eight grams, that change did
not affect the statutory penalties of those, like Cunningham,
who were originally sentenced under section 841(b)(1)(C).
Cunningham's statutory minimum and maximum sentence––
zero to thirty-year imprisonment––were the same before and
after the passage of the Fair *838 Sentencing Act. The

district court did not err in denying Cunningham's motion for
First Step Act relief.
AFFIRMED.
All Citations
824 Fed.Appx. 835

Footnotes
1

“We review de novo ... whether a district court had the authority to modify a term of imprisonment.”
962 F.3d at 1296 (citation omitted).

End of Document

Jones,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

3a

The district court’s order denying
Motion to Reduce Sentence Pursuant to
the First Step Act

Case 6:06-cr-00032-JA-DCI Document 156 Filed 09/20/19 Page 1 of 2 PageID 1170

4a

Case 6:06-cr-00032-JA-DCI Document 156 Filed 09/20/19 Page 2 of 2 PageID 1171

5a

